                                                                Issue Date
                                                                             June 17, 2008
                                                                Audit Report Number
                                                                         2008-LA-1011




TO:         K.J. Brockington, Director, Los Angeles Office of Public Housing, 9DPH



FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The City of Phoenix Housing Department’s Controls over Section 8 Tenant
           Eligibility and Rent Determinations Were Not Adequate


                                   HIGHLIGHTS

 What We Audited and Why

      We reviewed the City of Phoenix Housing Department’s (Housing Department) Housing
      Choice Voucher program. We conducted the audit as part of the Office of Inspector
      General’s (OIG) annual plan. The Housing Department was selected for review because
      it is the largest housing authority in the state of Arizona and had not previously been
      audited by OIG. The objective of the audit was to determine whether the Housing
      Department supported tenant eligibility and rent determinations in accordance with HUD
      requirements.


 What We Found


      The Housing Department did not ensure that tenant eligibility and associated housing
      assistance payment amounts were properly supported. As a result, it paid $371,469 in
      unsupported housing assistance and $12,616 in ineligible housing assistance.
What We Recommend

     We recommend that the Director of the U.S. Department of Housing and Urban
     Development’s (HUD) Los Angeles Office of Public Housing require the Housing
     Department to (1) support or reimburse $371,469 in unsupported housing assistance
     payments; (2) reimburse $12,616 in ineligible housing assistance payments; (3) establish
     and implement an adequate training program, including standardized training materials,
     to ensure that its staff have the capability to perform tenant eligibility and housing
     assistance payment determinations in accordance with HUD requirements; and (4) take
     appropriate action to ensure that a sufficient number of staff are available to administer
     its Section 8 voucher program.

     For each recommendation without a management decision, please respond and provide
     status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
     copies of any correspondence or directives issued because of the audit.

Auditee’s Response


     We provided the Housing Department the draft report on May 28, 2008, and held an exit
     conference with auditee officials on June 3, 2008. The auditee agreed with our audit
     recommendations.

     The complete text of the auditee’s response can be found in appendix B of this report.




                                              2
                             TABLE OF CONTENTS

Background and Objectives                                                     4

Results of Audit
   Finding 1: The Housing Department Did Not Support Tenant Eligibility and   5
              Housing Assistance Payments in Accordance with HUD’s Program
              Requirements

Scope and Methodology                                                         9

Internal Controls                                                             11

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use        12
   B.   Auditee Comments                                                      13
   C.   Schedule of Deficiencies Found in 37 of 60 Files                      15
   D.   Criteria                                                              19




                                              3
                      BACKGROUND AND OBJECTIVES

The City of Phoenix Housing Department (Housing Department) administers approximately
5,270 housing choice vouchers under HUD’s Section 8 program. From July 2005 through June
2007, it paid more than $70 million in housing assistance for the benefit of Section 8 program
participants. In addition, it received approximately $5.8 million in Section 8 administrative fees
during this period.

Housing choice vouchers allow low-income families to choose and rent safe, decent, and
affordable privately owned rental housing. Local public housing agencies (agencies) receive
federal funds from HUD to administer the voucher program. A housing subsidy is paid to the
landlord directly by the agency on behalf of the participating family. The family then pays the
difference between the actual rent charged by the landlord and the amount subsidized by the
program. Eligibility for a housing voucher is determined by the agency based on the total annual
gross income, family size, and other program requirements. During the application process, the
agency is required to collect and verify information on family income, assets, and family
composition to support the family’s eligibility for participation in the program and the calculated
amount of assistance.

The objective of the audit was to determine whether tenant eligibility and rent determinations
were performed in accordance with HUD requirements and, accordingly, whether the associated
housing assistance payments were supported.




                                                 4
                                RESULTS OF AUDIT

Finding 1: The Housing Department Did Not Support Tenant Eligibility
and Housing Assistance Payments in Accordance with HUD’s Program
Requirements
The Housing Department did not properly support tenant eligibility and housing assistance
payment amounts in 37 of the 60 cases reviewed. This occurred because the Housing
Department failed to provide sufficient staff training to prevent frequent processing errors.
Insufficient staffing levels may have also contributed to the processing errors. As a result, the
Housing Department paid $371,469 in unsupported housing assistance and $12,616 in ineligible
housing assistance.



 Payment Amounts Were Not
 Supported in 37 of 60 Cases
 Reviewed


       We reviewed a random sample of 60 Housing Choice Voucher program tenant files. In
       37 of the files, the Housing Department did not have adequate documentation to support
       the tenants’ eligibility or housing assistance payment amount and/or did not correctly
       calculate the assistance amount. Our sample included housing assistance payments that
       occurred during the period July 2005 through June 2007. We noted the following
       problems during the file reviews:

             •   Tenant income was not calculated correctly.
             •   Tenant income was not verified as required.
             •   Utility allowances were incorrect.
             •   Recertification documents were missing, and/or no recertification was
                 performed.
             •   Required tenant background checks were not documented and/or performed.

       Each of these problems resulted in unsupported and/or ineligible Section 8 housing
       assistance payments made by the Housing Department. Details of the deficiencies found
       are discussed below. Appendix C documents the amount of unsupported housing
       assistance payments related to each tenant file.

       Incorrect Income Calculations

       In nine of the 60 tenant files reviewed, the Housing Department did not calculate the
       tenant’s income in accordance with applicable program requirements and, therefore,
       incorrectly determined the associated housing assistance payment amount. Eight of these


                                                5
errors resulted in an overpayment of assistance, and the remaining two errors resulted in
an underpayment.

Missing Income Verifications

The Housing Department must establish procedures to verify that income data used for
tenant eligibility reviews are complete and accurate. Three of the sixty tenant files
reviewed did not contain required verifications to support the tenant’s income amounts.

Incorrect Utility Allowances

The Housing Department is required to establish utility allowance standards for use in
determining the total Section 8 housing assistance amounts that should be paid to each
program participant. Based upon our file reviews, the Housing Department did not select
the appropriate utility allowance amount when performing its annual tenant eligibility
examinations in two of the files reviewed.

Missing Recertification

The Housing Department is required to perform a recertification of tenants’ eligibility at
least annually to determine whether they continue to meet the program’s qualification
requirements. However, in three cases, the files did not include documentation
supporting that an annual recertification was performed. Because the tenants’ eligibility
for participation in the program was not established, the housing assistance payments for
the associated periods were not supported.

Criminal Background and Prior Eviction Checks

The Housing Department is required to deny eligibility for three years (from the date of
eviction), if a household member has been evicted from federally assisted housing for
drug-related criminal activity. Eligibility must also be denied to those with a lifetime
registration requirement under a state sex offender registration program. Further, the
Housing Department’s administrative plan includes additional eligibility criteria related
to tenants’ criminal history that could prohibit a potential tenant from participation in the
program. The Housing Department must perform background checks necessary to
determine whether any household member is ineligible based upon his or her criminal or
tenant eviction history.

In 30 of the 60 cases reviewed, the Housing Department’s files did not contain evidence
documenting that criminal background or prior eviction checks were performed. In 25 of
these cases, the Housing Department indicated that its initial tenant files, where
background documentation is typically maintained, were not available because they were
either missing or had been destroyed. In the remaining 5 cases, the Housing
Department’s initial files were available for review; however, there was no
documentation supporting the performance of criminal or prior eviction verifications.
Because the tenants’ eligibility for participation in the program was not properly



                                          6
     established and/or documented in these cases, the associated housing assistance payments
     for these tenants was unsupported.


Quality Control Reviews Also
Disclosed Frequent Errors



     The Housing Department’s own quality control reviews for the period July 2006 through
     June 2007 also found a high rate of errors for tenant eligibility and housing assistance
     payment determinations. The Housing Department found that 47 of the 99 files reviewed
     contained errors similar to those identified as part of our audit, including lack of income
     verifications, miscalculated income, miscalculated medical expenses, and incorrect utility
     allowances.

     According to Housing Department managers, the high error rates were caused in part by
     insufficient staffing levels. Ineffective staff training procedures also contributed to
     frequent processing errors. For example, the Housing Department did not have any
     printed training materials and did not have a process for ensuring all new employees
     received adequate and consistent training. The Housing Department’s staff performed
     on-the-job training with new employees, and utilized supervisory reviews of new
     employees’ files as a means of training, yet did not implement standardized policies or
     procedures to ensure training was consistent and included coverage of all appropriate
     details.



Conclusion

     The Housing Department failed to properly support tenant eligibility and housing
     assistance payment amounts because it did not establish and implement effective staff
     training procedures to prevent frequent processing errors. The Housing Department did
     not have any printed training materials and did not have a consistent process for ensuring
     all new employees received adequate training. According to Housing Department
     managers, insufficient staffing levels may have also contributed to the high error rates.
     As a result, the Housing Department paid $371,469 in unsupported Section 8 housing
     assistance and $12,616 in ineligible Section 8 housing assistance.

     As described in the scope and methodology section of the report, our audit included a
     sampling plan that allowed a statistical projection of the amount of the Section 8 housing
     assistance over or underpaid because the Housing Department improperly calculated the
     subsidy amounts. Based on the statistical sample testing, we projected the results to the
     universe of housing assistance payments made from July 1, 2005, through June 30, 2007,
     and estimated that, if the Housing Department implements our recommendations to
     eliminate errors in calculating subsidy payments, it would not spend $540,427 on excess



                                              7
   Section 8 housing assistance over the next year. Accordingly, we have made
   recommendations to ensure that adequate controls and procedures are implemented in the
   future to ensure that Section 8 housing assistance payment amounts are properly
   calculated and only paid on behalf of eligible tenants.


Recommendations


   We recommend that the Director of the Los Angeles Office of Public Housing require the
   Housing Department to

   1A.    Provide supporting documentation or reimburse its program $371,469 from
          nonfederal funds for the unsupported housing assistance payments.

   1B.    Reimburse its program $12,616 from nonfederal funds for ineligible housing
          assistance payments.

   1C.    Establish and implement a comprehensive training program, including
          standardized training materials, to ensure that its staff have the capability to
          consistently perform tenant eligibility and housing assistance payment
          determinations in accordance with HUD requirements, and prevent future
          overpayments totaling the projected annualized amount of $540,427.

   1D.    Evaluate current staffing levels and take appropriate action to ensure that a
          sufficient number of adequately trained staff are available to correctly perform
          tenant eligibility and housing assistance payment determinations.




                                             8
                        SCOPE AND METHODOLOGY

We performed our audit work at the Housing Department offices in Phoenix, Arizona from
September 2007 through April 2008. The review covered Section 8 housing assistance payments
made for the period July 2005 through June 2007. To accomplish our audit objective, we

       •   Reviewed HUD regulations, notices, handbooks, and applicable federal regulations;
       •   Interviewed appropriate officials from HUD’s Office of Public Housing;
       •   Interviewed Housing Department personnel, including Section 8 program
           administration staff, Applications and Information Division staff, City of Phoenix
           Finance Division staff, and IT (information technology) department managers and
           staff;
       •   Reviewed records maintained by HUD pertaining to the Housing Department
           including recent monitoring review reports;
       •   Reviewed the Housing Department’s administrative plan;

To determine whether the Housing Department processed the eligibility and housing assistance
payment amount determinations in accordance with HUD requirements, we tested a statistical
sample of data obtained from the Housing Department’s automated system used to manage its
Section 8 operations. We identified 5,508 participants who were paid $62,783,204 in Section 8
housing assistance payments during the period July 1, 2005, through June 30, 2007. Payments
associated with “portable” tenants were excluded from the sample universe since these vouchers
were administered by other housing authorities. We noted instances of missing data and
discrepancies between reports from the Section 8 housing information system and the accounting
system used to issue the Section 8 payments. Accordingly, we performed additional tests on the
data provided by the Housing Department and determined it was reliable for statistical sampling
purposes. We did not perform a full audit of the Housing Department’s computer systems, and
will separately communicate our observations regarding the data issues to Housing Department
management.

Sampling methodology

Using variable sampling methodology, we determined that a sample size of 60 tenants was
sufficient to project the improper payments to the universe using a 90 percent confidence level.
Based upon the review of the tenant files, we compared the difference between the housing
assistance payments that were actually paid versus the amount that should have been paid and
estimated that the Housing Department over-paid $1,080,853 in housing assistance payments for
the two year period reviewed. This amount represents the calculated point estimate. The actual
error resulting from processing errors could have been more or less than the calculated point
estimate since we did not review 100 percent of the assistance payments and the sample testing
allowed for a 90% confidence level. The sample precision was $1,242,150 and the calculated
lower and upper limits were ($161,297) and $2,323,003 respectively. The negative lower limit
indicates processing errors could have resulted in a net underpayment of housing assistance
payments. Based upon the audit, which found errors that predominantly resulted in assistance
overpayments rather than underpayments (see Appendix C), and the fact that the Housing


                                               9
Department’s own quality control reviews disclosed similar findings with an even greater
frequency of errors than found during the audit, we believe the use of the calculated point
estimate is conservative and represents the most appropriate estimate for the reported amount of
funds to be put to better use. Since the audit sample covered a two year period, we used half of
the point estimate amount to report an annualized figure for the estimated funds to be put to
better use.

We performed our audit in accordance with generally accepted government auditing standards.




                                               10
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
       We determined the following internal controls were relevant to our audit objectives:

            •   Administration of the Section 8 program including controls over tenant
                eligibility and housing assistance payment amount determinations,

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable assurance
       that the process for planning, organizing, directing, and controlling program operations will
       meet the organization’s objectives.


 Significant Weaknesses

       Based on our review, we believe the following items are significant weaknesses:

            •   The Housing Department did not establish and implement adequate controls to
                ensure that tenant eligibility and housing assistance payment amounts were
                properly supported.




                                                11
                                          APPENDIXES

  Appendix A

                     SCHEDULE OF QUESTIONED COSTS
                    AND FUNDS TO BE PUT TO BETTER USE

Recommendation                Ineligible 1/             Unsupported 2/            Funds to be put to better
    number                                                                                 use 3/
       1A                                                   $371,469
       1B                       $12,616
       1C                                                                                 $540,427


  1/        Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
            that the auditor believes are not allowable by law; contract; or federal, state, or local
            polices or regulations.

  2/        Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
            or activity when we cannot determine eligibility at the time of audit. Unsupported costs
            require a decision by HUD program officials. This decision, in addition to obtaining
            supporting documentation, might involve a legal interpretation or clarification of
            departmental policies and procedures.

  3/        Recommendations that funds be put to better use are estimates of amounts that could be
            used more efficiently if an OIG recommendation is implemented. This includes
            reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
            incurred by implementing recommended improvements, avoidance of unnecessary
            expenditures noted in preaward reviews, and any other savings which are specifically
            identified. In this instance, if the Housing Department implements our recommendations,
            it will cease to incur excess housing assistance payments. Once the Housing Department
            successfully improves its controls, this will become a recurring benefit. Our estimate
            reflects only the initial year of this benefit.




                                                   12
      Appendix B

                        AUDITEE COMMENTS


Ref to OIG Evaluation         Auditee Comments

Comment 1




                               13
14
Appendix C

    SCHEDULE OF DEFICIENCIES FOUND IN 37 OF 60 FILES


Sample        Ineligible       Unsupported        Total Assistance
Number        Amount            Amount              Payments           Findings                   Finding Notes
                                                                                  Failed to include 50% of disability income
                                                                                  after tenant returned to work for more than
                                                                                  one year. (Finding applicable to review
    1     $        1,098                      $                8,899      B       effective July 1, 2006)
    2     $            - $               -    $                1,448
                                                                                  Did not include child support income of
                                                                                  $2,559 for one of two dependants. (Finding
                                                                                  applicable to review effective January 1,
    3     $          384 $           14,291   $               14,675    A, B      2007)
    4     $           - $             3,096   $                3,096     A
                                                                                  No recertification documentation present.
                                                                                  (Finding applicable to review effective July
    5     $           -    $         14,184   $               14,184    A, E      1, 2005)
                                                                                  Did not include child support income of
                                                                                  $2,878. (Finding applicable to review
    6     $          864                      $               17,242      B       effective October 3, 2005)
                                                                                  No verification of tenant income. (Finding
                                                                                  applicable to review effective August 1,
     7    $           -    $          8,217   $                8,217    A, C      2005)
     8    $           -    $         12,964   $               12,964     A
     9    $           -    $          6,477   $                6,477     A
    10    $           -    $          1,532   $                1,532     A
    11                     $         10,651   $               10,651     A
    12    $           -    $          6,312   $                6,312     A
    13    $           -    $              -   $               10,842
                                                                                  Overstated tenant child support income.
                                                                                  (Finding applicable to review effective
    14    $         (486) $              -    $                2,320      B       February 1, 2005)
    15    $           -                       $                3,843




                              Legend
A   No background or eviction verification performed
B   Incorrect income calculation
C   Income not verified
D   Incorrect utility allowance
E   No recertification documentation
F   Ineligible tenant




                                                               15
Sample        Ineligible       Unsupported        Total Assistance
Number        Amount            Amount              Payments          Findings                  Finding Notes
                                                                                 Apparent resident was a convicted sex
                                                                                 offender and was not eligible to receive
                                                                                 Section 8 benefits. (Finding applicable to
    16    $       7,906    $             -    $               7,906     A, F     review effective March 31, 2007)
    17    $           -    $             -    $              19,359

                                                                                 No support for claimed income amount
                                                                                 (source not determinable). Also, $275/mo
                                                                                 assistance not included in income.
                                                                                 Indication of child support (on handwritten
                                                                                 50058) yet not addressed by the Housing
                                                                                 Department. (Finding applicable to review
    18    $         612    $         10,476 $                18,458    B, C      effective Aug 1, 2005)

                                                                                 Used net Social Security income amount yet
                                                                                 the State paid for Medicare insurance - did
                                                                                 not address this discrepancy. Deduction was
                                                                                 likely due to prior debt to Social Security
                                                                                 Administration that a letter in file shows was
                                                                                 cancelled - indicating deductions would not
                                                                                 continue. (Finding applicable to review
    19    $         137    $              -   $               9,061      B       effective February 1, 2006)
    20    $           -    $          9,666   $               9,666      A
    21    $           -    $         16,572   $              16,572      A
    22    $          -     $              -   $               8,596

                                                                                 Included medicare premium paid by Social
                                                                                 Security as a medical expense. An incorrect
                                                                                 utility allowance amount was used. Contract
                                                                                 does not indicate tenant pays gas hot water
                                                                                 and gas heat. Appears landlord may have
                                                                                 inappropriately billed for these anyway.
                                                                                 (Finding applicable to reviews effective
                                                                                 October 22, 2004 and November 1, 2005,
    23    $         141    $              -   $               3,678    B, D      respectively)
    24    $           -    $          9,594   $               9,594     A
    25    $           -    $         18,113   $              18,113     A
    26    $          -     $              -   $              14,695
    27    $           -    $          3,375   $               3,375      A
    28    $           -    $         20,481   $              20,481      A
    29    $           -                       $              11,909
    30    $           -    $             -    $              10,459

                              Legend
A   No background or eviction verification performed
B   Incorrect income calculation
C   Income not verified
D   Incorrect utility allowance
E   No recertification documentation
F   Ineligible tenant




                                                               16
Sample      Ineligible     Unsupported    Total Assistance
Number      Amount          Amount          Payments           Findings                 Finding Notes
  31      $          -   $       10,543 $             10,543      A
  32      $          -                  $             22,687
  33      $          -                  $             10,269
  34      $          -   $            - $              1,857
  35      $          -   $       10,546 $             10,546      A
  36      $          -   $        9,596 $              9,596      A
                                                                          Did not follow "Procedure for projection of
                                                                          unstable income" as required by the
                                                                          Housing Department's administrative plan.
                                                                          (Finding applicable to review effective
    37    $     1,474    $           -   $           24,892       B       November 10, 2004)
                                                                          No recertification documentation present.
                                                                          (Finding applicable to review effective
    38    $         -    $      23,081 $             23,081     A, E      November 1, 2004)
    39    $         -    $           - $             15,693
    40    $         -    $           - $             12,669
    41    $         -                  $             11,290
    42    $         -    $      14,326 $             14,326       A
    43    $         -    $      14,868 $             14,868       A
    44    $         -    $           - $             10,920
    45    $         -    $           - $              9,255
    46    $         -    $           - $             12,499
    47    $         -    $           - $             20,967
    48    $         -    $           - $             14,364
    49    $         -    $           - $             23,330
    50    $         -    $           - $             18,108
    51    $         -                  $              9,384
                                                                          No recertification review documentation
                                                                          was present in the file for action effective
                                                                          08/01/05. No supporting documentation for
                                                                          apparent second resident - therefore
                                                                          eligibility was not properly determined.
                                                                          (Finding applicable to reviews effective
                                                                          August 1, 2004, August 1, 2005, and August
    52    $         -    $      14,268 $             14,268    A, C, E    1, 2006)
    53    $         -    $       8,982 $              8,982       A

                                                                          Incorrect utility allowance was used.
                                                                          (Finding applicable to reviews effective
    54    $      (204) $        14,144 $             14,144     A, D      September 1, 2005 and September 1, 2006)


                               Legend
A    No background or eviction verification performed
B    Incorrect income calculation
C    Income not verified
D    Incorrect utility allowance
E    No recertification documentation
F    Ineligible tenant




                                                        17
Sample       Ineligible       Unsupported     Total Assistance
Number       Amount            Amount           Payments          Findings                 Finding Notes

                                                                             Incorrect child support income calculation -
                                                                             Income overstated. (Finding applicable to
 55      $        (152)   $        21,856 $              21,856     A, B     review effective October 7, 2005)
 56      $          -                     $               4,635
 57      $          -     $        21,354 $              21,354      A
 58      $          -     $        11,892 $              11,892      A
 59      $          -     $         6,708 $               6,708      A
 60      $          -     $        23,304 $              23,304      A
Total                     $       371,469 $             732,911

         $      12,616 Total Overpayments
         $        (842) Total Underpayments




                              Legend
A   No background or eviction verification performed
B   Incorrect income calculation
C   Income not verified
D   Incorrect utility allowance
E   No recertification documentation
F   Ineligible tenant




                                                           18
Appendix D

                                         CRITERIA


24 CFR 982.516(a): The authority must conduct a reexamination of family income and
composition at least annually and document in the tenant file third-party verification or why
third-party verification was not available.

24 CFR 5.240(c): The responsible entity must verify the accuracy of the income information
received from the family and change the amount of the total tenant payment as appropriate,
based on such information.

24 CFR 982.158(a): The public housing authority must maintain complete and accurate accounts
and other records for the program in accordance with HUD requirements in a manner that
permits a speedy and effective audit.

24 CFR 5.855: Housing authorities are allowed to prohibit admission of individuals who have
engaged in criminal activity if the housing authority determines that any household member is
currently engaging in or has engaged in during a reasonable time before the admission decision
(1) drug-related criminal activity; (2) violent criminal activity; (3) other criminal activity that
would threaten the health, safety, or right to peaceful enjoyment of the premises by other
residents; or (4) other criminal activity that would threaten the health or safety of the housing
authority or owner or any employee, contractor, subcontractor, or agent of the housing authority
or owner who is involved in the housing operations.

HUD’s housing Choice Voucher Program Guidebook, Chapter 20.7: Housing authorities are
required to maintain a housing assistance payments register that includes the name and address
of the family; name and address of the owner; dwelling unit size; beginning date of lease term;
monthly contract rent payable to owner; monthly family contribution; monthly housing
assistance payment to owner; date the family vacated, and the number of days the unit is vacant,
if any.

The Housing Department’s administrative plan includes eligibility criteria related to tenants’
criminal history that could prohibit a potential tenant’s eligibility for participation in the
program.




                                                19
